 

IN THE SUPREME COURT OF THE UNITED STATES

 

OCTOBER TERM, 2021

 

CASEY RAY CULP,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

 

CERTIFICATE OF SERVICE
I hereby certify and declare that true and exact copies of the Petition for Writ of Certiorari
to the United States Court of Appeals of the Ninth Circuit and Motion for Leave to Proceed in
Forma Pauperis were mailed, first-class postage prepaid, this 22nd day of September, 2021, to all
parties required to be served as follows: Solicitor General, Department of Justice, Washington,
D.C., 20530; Jeffrey K. Starnes, Assistant United States Attorney, P.O. Box 3547, Great Falls, MT

59403; and Mr. Casey Ray Culp, Register Number 17872-046, FCI Herlong, P.O. Box 800,

Herlong, CA 96113. ¢ A

ANTHONY R. GALLAGHER
Federal Defender for the District of Montana
*RACHEL JULAGAY,
Assistant Federal Defender
104 Second Street South, Suite 301
Great Falls, MT 59401
Telephone: (406) 727-5328
Fax: (406) 727-4329
*Counsel of Petitioner
